          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Evaluation Report
The Department's Unclassified
Resolution of Significant Finding
Cyber Security Program—2005
Investigation Recommendations




DOE/IG-
DOE/IG-0700                            November2005
                                    September   2002
EVALUATION REPORT ON THE DEPARTMENT'S UNCLASSIFIED
CYBER SECURITY PROGRAM – 2005



TABLE OF
CONTENTS

              Cyber Security Program

              Details of Finding ...................................................................1

              Recommendations and Comments..........................................8


              Appendices

              1. Objective, Scope, and Methodology..................................9

              2. Prior Reports ....................................................................11
UNCLASSIFIED CYBER SECURITY PROGRAM


Program Improvements We found that the Department of Energy (Department)
                     continued to take steps to strengthen its cyber security
                     program and had implemented a number of
                     countermeasures to reduce network vulnerabilities
                     addressed in our Evaluation Report on the Department's
                     Unclassified Cyber Security Program-2004 (DOE/IG-0662,
                     September 2004). During the past year, senior-level
                     management officials have focused their attention on
                     protecting the Department's systems and data. In
                     particular, we observed that:

                              •   Several important cyber security policy
                                  memoranda addressing security improvements,
                                  certification and accreditation, and minimum
                                  security configuration requirements had been
                                  issued;

                              •   Improvements had been made in the accuracy of
                                  the Plan of Action and Milestones (POA&M)
                                  database used to report and track cyber security
                                  weaknesses; and,

                              •   The overall volume of cyber security findings
                                  issued during our evaluation declined from 32 in
                                  2004 to 21 in 2005.

Risk Management          While the Department has made incremental progress in
                         strengthening its cyber security program, additional work is
                         needed to ensure that all components necessary to sustain a
                         comprehensive risk management program are completed.
                         Our evaluation disclosed that despite substantial effort,
                         certification and accreditation and a comprehensive
                         inventory of major systems remain incomplete. At certain
                         sites, organizations had not developed and/or tested system
                         contingency plans. In a number of instances, sites failed to
                         report computer intrusions or other cyber security incidents
                         to law enforcement officials as required. These processes
                         are essential components of a risk management strategy and
                         provide a framework for managing threats to agency
                         operations, assets, and employees resulting from the
                         operation of information systems.




________________________________________________________________
Page 1                                            Details of Finding
                                    Certification and Accreditation

                      Certain sites had not completed certification and
                      accreditation (C&A) of all major and general support
                      systems as required by Federal regulation. C&A of
                      information systems enables program officials or system
                      owners to, among other things, develop policies and
                      procedures to address high-risk issues through
                      cost-effective mitigation strategies. Based on an
                      independent review of C&A documentation packages
                      completed by the Office of Chief Information Officer
                      (OCIO) during 2004 and 2005, many of the C&As
                      completed at Headquarters and various sites lacked critical
                      components or had been inadequately documented.
                      Specifically, the OCIO's review of C&A packages for 45
                      systems disclosed that 39 were inadequate. Various
                      problems were identified including missing POA&Ms, risk
                      assessments, security plans, and/or a lack of accreditation
                      documentation.

                      Our own tests, and those completed by the Office of
                      Independent Oversight and Performance Assurance (OA),
                      identified additional problems at a number of other sites.
                      At seven of the sites reviewed, we noted problems similar
                      to those identified by the OCIO. For example,
                      organizations failed to conform their C&A actions to
                      National Institute of Standards and Technology (NIST)
                      requirements and omitted or did not adequately document
                      various components including those related to security
                      controls. Certain sites also incorrectly used a broad
                      grouping or "enclave" approach to completing C&A of
                      their systems. In using such an approach, organizations
                      grouped systems together without regard to the security
                      levels of the individual systems within those enclaves. As
                      a consequence, systems rated as high risk were grouped
                      with low risk systems and may not have received adequate
                      protective measures.

                                          Systems Inventory

                      Even though required by the Federal Information Security
                      Management Act (FISMA), the Department had not yet
                      established a complete inventory of systems. Generally,
                      agencies are required to develop a system inventory that
                      includes an identification of the interfaces between each
                      system and all other systems or networks, including those

________________________________________________________________
Page 2                                            Details of Finding
                      not operated by or under the control of the agency. As we
                      reported in our Evaluation Report on the Department's
                      Unclassified Cyber Security Program (DOE/IG-0519,
                      August 2001), the Department had started to identify,
                      prioritize, and protect its critical assets during 2001. As of
                      the date of our evaluation, however, the Department had
                      not established a firm methodology or system definition
                      and the effort remained incomplete. As a consequence,
                      reporting varied significantly among sites. In some
                      instances, sites inappropriately grouped a number of
                      systems, some with differing risk levels, and reported that
                      grouping as a single system or enclave. Inventory data
                      gathered by some sites also lacked information regarding
                      how systems were interconnected – data essential for
                      planning and determining necessary protective measures.

                                         Contingency Planning

                      Five of the 34 sites included in our review had not taken the
                      action necessary to ensure that their systems could maintain
                      or resume critical operations in the event of emergency or
                      disaster. Specifically, four sites had not developed or
                      tested contingency or disaster recovery plans for their
                      financial or other major systems. Additionally, one of the
                      sites had not completed a risk assessment or a continuity of
                      operations plan for its computer center. We also noted that
                      the backup server for a system was located in the same
                      location as its primary production server, thus negating the
                      benefit of the backup server should a localized disaster
                      occur. Our Audit Report on Management Controls Over
                      Selected Departmental Critical Monitoring and Control
                      Systems (OAS-M-05-06, June 2005) similarly found that
                      five of the six critical systems we reviewed did not have
                      necessary controls to mitigate foreseeable risks – including
                      the formulation of comprehensive contingency plans,
                      establishment of secondary systems, and adequate
                      protection measures for backup information.

                                           Incident Reporting

                      Although program elements have improved their reporting
                      of cyber security incidents to the Department's Computer
                      Incident Advisory Capability, we found that incidents were
                      still not always reported to law enforcement officials. As
                      required by FISMA and Department policy, the Office of
                      Inspector General (OIG), Office of Investigations is to be

________________________________________________________________
Page 3                                            Details of Finding
                      notified of all cyber security incidents that fall into six
                      categories, including compromise/intrusion, web site
                      defacement, malicious code, denial of service, critical
                      infrastructure protection, and unauthorized use. At the time
                      of our evaluation, however, the Department had notified the
                      Office of Investigations of only about half (60 of 108) of
                      the qualifying cyber security incidents that occurred in
                      Fiscal Year (FY) 2005. Failure to report these occurrences
                      jeopardizes the ability to promptly investigate potential
                      criminal cyber security incidents.

Security Controls     Despite significant efforts over the past several years, the
                      Department continued to experience problems in the areas
                      of access controls, segregation of duties, and configuration
                      management. While progress had been made in correcting
                      security control weaknesses identified in previous
                      evaluation reports, we continued to identify problems at
                      over half of the 34 sites included in our evaluation.

                                            Access Controls

                      The Department continues to experience access control
                      weaknesses across the complex. Even though sites
                      corrected most problems reported last year, we identified 4
                      repeat and 16 new weaknesses during this year's evaluation.
                      Strong and functional access controls are essential for
                      ensuring that only authorized individuals can access
                      information resources. Access controls consist of both
                      physical and logical controls designed to protect computer
                      resources from unauthorized modification, loss, or
                      disclosure. Access control problems included:

                           •   Seven sites had easily guessed, blank, or vendor
                               default passwords. Since vendor default
                               passwords are widely known, malicious
                               individuals could exploit them to gain access to
                               sensitive information;

                           •   Four sites had passwords that did not comply with
                               Departmental policy. For example, passwords
                               established for a classified network on which a
                               financial system resides, and an unclassified
                               network including support applications, were not
                               sufficiently strong in that they did not contain
                               required special characters;


________________________________________________________________
Page 4                                            Details of Finding
                           •   Five sites granted system administrators excessive
                               privileges that were not required to perform their
                               assigned duties. These privileges, if exploited,
                               could permit unauthorized or malicious
                               modifications to systems or information; and,

                           •   One site used a group account that permitted
                               database administrators to access production
                               systems. This procedure does not provide an
                               audit trail and could enable unauthorized or
                               malicious modification to data.

                                         Segregation of Duties

                      Our review disclosed five instances of inadequate
                      segregation of duties. Such controls are important because
                      they inhibit fraudulent activities by controlling personnel
                      activities through formal operating procedures, supervision,
                      and review. Specifically, we found inadequate segregation
                      of duties regarding application developers with access to
                      production systems that could permit them to introduce
                      untested, unapproved, or malicious changes into active
                      systems. Other users had been granted system privileges
                      that allowed incompatible duties. For example, members
                      of an accounts payable department were granted system
                      privileges that allowed access to the general ledger user
                      module, while other individuals had the assigned duty to
                      both record and delete fixed assets, as well as reconcile the
                      general ledger amounts to sub-ledgers.

                           Configuration Management and Change Control

                      Testing at sites covered by our evaluation also revealed 16
                      instances of configuration management and change control
                      weaknesses. These controls help ensure that computer
                      applications and systems are controlled and protected
                      against unauthorized modifications and are essential to a
                      coordinated and strong security policy. While the
                      Department corrected several problems reported last year,
                      we found similar problems this year at different sites,
                      including:

                           •   Weak patch management, a practice that exposes
                               systems to an increased risk of attack or
                               compromise because available security updates
                               are not applied or are not executed in a timely
                               manner;
________________________________________________________________
Page 5                                            Details of Finding
                                •   Not replacing or updating software with known
                                    vulnerabilities; and,

                                •   Not ensuring that changes to systems or
                                    applications were properly managed and
                                    controlled.

Cyber Security Program These problems occurred, at least in part, because program
Management             elements did not always ensure that Departmental and
                       Federal cyber security requirements were properly
                       implemented. Although required by Office of Management
                       and Budget (OMB) guidance, we noted that the Department
                       had not taken advantage of lessons learned through audits,
                       evaluations, and reviews to strengthen its cyber security
                       posture.

                                              Program Management

                           Departmental program offices did not always ensure that
                           Federal cyber security requirements, Department policies,
                           and controls were properly implemented by field
                           organizations and facility contractors. In certain cases, as
                           with the C&A process, we noted that program offices set
                           forth implementing procedures that were overly permissive
                           and did not comply with NIST requirements. In other
                           examples, we found that despite Departmental guidance to
                           the contrary, program officials had not ensured that facility
                           operating contracts were modified to incorporate all
                           Federal cyber security requirements.

                           For example, we learned that a major program office's
                           policy implementing guidance did not specifically require
                           that contractors comply with FISMA, OMB, and NIST
                           cyber security requirements. One contractor-managed field
                           operation did not agree that it was required to comply with
                           such requirements. The contractor-managed field operation
                           of another major program office stated that, even though it
                           agreed it was required to comply with FISMA, OMB, and
                           NIST requirements, it would not comply until the
                           requirement was added to its contract as required by
                           Departmental policy. Failure to comply with these cyber
                           security requirements is critical since the vast majority of
                           the Department's sites are managed and operated by
                           contractors and contract employees comprise over
                           85 percent of the Department's workforce.


________________________________________________________________
Page 6                                            Details of Finding
                                                POA&M

                      Although improvements had been made in the accuracy of
                      the POA&M database, the Department had not used this
                      important management tool to its maximum advantage.
                      While the database has been successfully used as a means
                      to track the status of cyber security weaknesses, its value as
                      a learning tool has been limited because the Department
                      has not disseminated information regarding common
                      findings to its various program elements. Since program
                      and site officials can only access data specifically related to
                      their organizations, they are unable to determine whether
                      weaknesses reported for other organizations may be
                      applicable to their sites. As noted in our report The
                      Department's Audit Resolution Process (DOE/IG-0639,
                      February 2004), such evaluations are required by OMB
                      Circular A-50 and could permit organizations to take
                      advantage of lessons learned through audits, evaluations,
                      and reviews to strengthen their cyber security posture.
                      Such actions are particularly relevant within the
                      Department because over the past several years we have
                      noted that, while previous year weaknesses are being
                      corrected, many of the same or similar weaknesses were
                      repeated at other sites in subsequent years.

Resources and Data    Although the Department continues to make improvements
Remain at Risk        in its unclassified cyber security program, its information
                      systems and networks and the data they contain remain at
                      risk of being compromised. These resources will remain at
                      risk until the Department takes action to proactively
                      manage its cyber security program and ensure
                      implementation of adequate cyber security controls by all
                      program elements, including contractors. Cyber security
                      incidents are on the rise and attempts to probe and penetrate
                      cyber security defenses are becoming increasingly
                      sophisticated. At the time of our review, the Department
                      had been subject to 108 significant cyber security incidents,
                      consisting primarily of worms, unauthorized users, and
                      malicious codes during FY 2005. Inadequate protective
                      measures leave valuable information technology resources
                      vulnerable to cyber attacks from internal and external
                      sources and could result in data tampering, disruption of
                      critical operations, and inappropriate disclosure of sensitive
                      information.




________________________________________________________________
Page 7                                            Details of Finding
RECOMMENDATIONS      This report identifies weaknesses that should be addressed
                     by the program offices in coordination with the OCIO.
                     Specifically, we recommend that the Administrator,
                     National Nuclear Security Administration, and the Under
                     Secretary for Energy, Science, and Environment, in
                     coordination with the Chief Information Officer (CIO):

                          1. Correct, through the implementation of
                             management, operational, and technical controls,
                             each of the specific vulnerabilities identified in
                             this report;

                          2. Take action to analyze and disseminate
                             information on common or recurring cyber
                             security weakness to cognizant program and site
                             officials;

                          3. Revise program office implementing guidance
                             and contracts to specifically require that site and
                             facility management contractors comply with
                             FISMA, OMB, and NIST cyber security
                             requirements; and,

                          4. Require program offices to establish a mechanism
                             to ensure that Federal and Departmental cyber
                             security policy and guidance are communicated,
                             understood, and implemented by line management
                             across the complex, including contractors.


MANAGEMENT           Management generally concurred with our findings and
REACTION             recommendations. Based upon an agreed-upon protocol,
                     management provided informal comments to our report.
                     Such comments were discussed with the OCIO on
                     September 16, 2005, and, where appropriate, have been
                     incorporated into our report.


AUDITOR COMMENTS     Management's proposed actions are responsive to our
                     recommendations.




________________________________________________________________
Page 8                              Recommendations and Comments
Appendix 1

OBJECTIVE             To determine whether the Department's unclassified cyber
                      security program adequately protected data and information
                      systems.


SCOPE                 The audit was performed between February and
                      September 2005 at several Department locations.
                      Specifically, we performed an assessment of the
                      Department's unclassified cyber security program. The
                      evaluation included a limited review of general and
                      application controls in areas such as entity-wide security
                      planning and management, access controls, application
                      software development and change controls, and service
                      continuity. Our work did not include a determination of
                      whether vulnerabilities found were actually exploited and
                      used to circumvent existing controls. OA performed a
                      separate review of classified and national security
                      information systems.


METHODOLOGY           To accomplish our evaluation objective, we:

                           •   Reviewed applicable laws and directives
                               pertaining to cyber security and information
                               technology resources such as FISMA, OMB
                               Circular A-130 (Appendix III), and DOE
                               Order 205.1;

                           •   Reviewed applicable standards and guidance
                               issued by NIST;

                           •   Reviewed the Department's overall cyber security
                               program management, policies, procedures, and
                               practices throughout the organization;

                           •   Assessed controls over network operations and
                               systems to determine the effectiveness related to
                               safeguarding information resources from
                               unauthorized internal and external sources;

                           •   Evaluated selected Headquarters offices and field
                               sites in conjunction with the annual audit of the
                               Department's Consolidated Financial Statements,
                               utilizing work performed by KPMG LLP, the OIG
                               contract auditor. OIG and KPMG work included


________________________________________________________________
Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)

                               analysis and testing of general and application
                               controls for systems as well as vulnerability and
                               penetration testing of networks; and,

                           •   Evaluated and incorporated the results of other
                               cyber security review work performed by the
                               OIG, KPMG, the Department's OA, the
                               Government Accountability Office (GAO), and
                               internal Departmental studies.

                      We also evaluated the Department's implementation of the
                      Government Performance and Results Act and determined
                      that it had established performance measures for
                      unclassified cyber security. We did not rely solely on
                      computer-processed data to satisfy our objectives.
                      However, computer-assisted audit tools were used to
                      perform probes of various networks and devices. We
                      validated the results of the scans by confirming the
                      weaknesses disclosed with responsible on-site personnel
                      and performed other procedures to satisfy ourselves as to
                      the reliability and competence of the data produced by the
                      tests.

                      The evaluation was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy our objective. Accordingly, we
                      assessed internal controls regarding the development and
                      implementation of automated systems. Because our review
                      was limited, it would not necessarily have disclosed all
                      internal control deficiencies that may have existed at the
                      time of our evaluation.

                      An exit conference was held with OCIO officials on
                      September 16, 2005.




________________________________________________________________
Page 10                            Objective, Scope, and Methodology
Appendix 2

                                  PRIOR REPORTS

Office of Inspector General Reports
   •   Audit Report on Management Controls Over Selected Departmental Critical
       Monitoring and Control Systems (OAS-M-05-06, June 2005). The report
       indicated that the Department could not ensure that selected critical monitoring
       and control systems could continue or resume operation with minimal disruption
       and information loss in the event of an emergency. Specifically, management did
       not always assess risks or take adequate steps to mitigate foreseeable risks.
       Among other things, the report noted that necessary steps to mitigate foreseeable
       risks – including the formulation of comprehensive contingency plans,
       establishment of secondary systems, and adequate protection measures for backup
       information – had not been completed for five of the systems reviewed.
   •   Development and Implementation of the Department's Enterprise Architecture
       (DOE/IG-0686, April 2005). The Department had not fully defined its current or
       future information technology requirements, essential elements if the architecture
       is to be an effective tool in managing information technology investments.
       Among other things, the report noted that although the Department had
       established a repository that would include a complete inventory of existing
       systems, at the time of the review, the Department had not fully populated the
       repository with inventory and requirements data.
   •   Special Report on Management Challenges at the Department of Energy
       (DOE/IG-0667, November 2004). The report stated that the Department
       continues to improve its information technology management by developing
       corrective actions to mitigate cyber security risks and to improve relevant
       controls. For instance, the Deputy Secretary initiated a campaign to complete
       certification and accreditation of all major applications and general support
       systems. The OCIO has issued a series of new cyber security policies that address
       previously reported weaknesses and emphasize a risk-based approach to
       managing security, that, when implemented, should strengthen cyber security
       across the Department. The OCIO is also making plans to independently verify
       and validate the vulnerability reduction steps being taken.
   •   Evaluation Report on the Department's Unclassified Cyber Security Program-
       2004 (DOE/IG-0662, September 2004). Even though the Department's overall
       cyber security posture has improved, problems continue to exist in the
       Department's unclassified cyber security program that, if uncorrected could
       expose critical systems to compromise. The report found that the Department had
       not completed implementation of a comprehensive risk management program.
       For example, the Department had not: 1) completed certification and
       accreditation of each major system to identify and mitigate risks; 2) prepared
       contingency plans to ensure that mission critical systems could continue in the
       event of an emergency or disaster; and , 3) ensured adequate security controls
       were in place at all of the sites.

________________________________________________________________
Page 11                                              Prior Reports
Appendix 2 (continued)

   •   The Department's Audit Resolution Process (DOE/IG-0639, February 2004). The
       Department did not fully realize the potential benefit of recommendations
       addressing internal control weaknesses because, in part, it did not perform trend
       analyses to identify systemic problems or routinely review audit findings for
       applicability to others. Despite recommendations in our previous report and
       requirements of OMB Circular A-50, the Department did not conduct periodic
       analyses of audit recommendations to identify trends, system-wide problems, and
       potential solutions. Accordingly, it did not take advantage of the opportunity to
       determine whether similar issues exist at other programs, activities, or sites.

   •   Evaluation Report on the Department's Unclassified Cyber Security Program
       (DOE/IG-0519, August 2001). Among other things, the report stated that the
       Department had not identified all critical information technology assets, an
       essential step in implementing an effective risk-based, cyber security program.
       As noted in a recent report, the Department had not developed an information
       systems baseline that included an inventory of applications and major systems in
       use or under development. Although the Department has started a process in
       2001 to identify, prioritize, and protect its critical assets, the effort remained
       incomplete.

Government Accountability Office Reports

   •   Information Security: Continued Action Needed to Improve Software Patch
       Management (GAO-04-706, June 2004). This audit identified, among other
       things, challenges to performing patch management and additional steps that can
       be taken to mitigate the risks created by software vulnerabilities. GAO found that
       agencies including the Department are not consistently performing risk
       assessments and testing all patches before deployment. However, GAO reported
       that agencies face several challenges to implementing effective patch
       management, including timeliness of patches, ensuring mobile systems receive
       the latest patches, and adequate resources.

   •   Information Security: Agencies Need to Implement Consistent Processes in
       Authorizing Systems for Operation (GAO-04-376, June 2004). GAO found that
       agencies including the Department are not consistently reporting C&A
       performance data. Additionally, GAO found that there are other factors that
       lessen the usefulness of the reported performance data including the limited
       assurance of data reliability and quality, and the need to refine reporting
       requirements to provide better information on the status of agencies' information
       security efforts. Further, when reviewing C&A packages from the Department,
       GAO found varying degrees of comprehensiveness and instances where required
       steps were incomplete such as missing and/or untested contingency plans, an
       outdated security plan, and missing risk assessments.




________________________________________________________________
Page 12                                              Prior Reports
Appendix 2 (continued)


   •   Information Technology Management: Governmentwide Strategic Planning,
       Performance Measurement, and Investment Management Can be Further
       Improved (GAO-04-49, January 2004). The report states that Federal agencies
       did not always have in place important practices associated with information laws,
       policies, and guidance. There were also numerous instances of individual
       agencies that did not have specific IT strategic planning, performance
       measurement, or investment management practices fully in place. Agencies cited
       a variety of reasons for not having these practices in place: the CIO position had
       been vacant; omissions of requirements from guidance were due to oversights; or
       the process was being revised.

Office of Independent Oversight and Performance Assurance Reports

   •   Independent Oversight Cyber Security Inspection of the Bonneville Power
       Administration (November 2004).

   •   Independent Oversight Cyber Security Inspection of the Brookhaven National
       Laboratory (February 2005).

   •   Independent Oversight Cyber Security Inspection of the Southeastern Power
       Administration (April 2005).

   •   Independent Oversight Cyber Security Inspection of the Southwestern Power
       Administration (October 2004).

   •   Independent Oversight Cyber Security Inspection of the Thomas Jefferson
       National Accelerator Facility (August 2004).

   •   Independent Oversight Cyber Security Inspection of the Western Area Power
       Administration (April 2005).




________________________________________________________________
Page 13                                              Prior Reports
                                                             IG Report No. DOE/IG-0700

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
